U.S. Department of Agriculture
 Office of Inspector General
     Great Plains Region
         Audit Report



      Food and Nutrition Service
    National School Lunch Program
 Atchison County Community Schools
          Effingham, Kansas




                Report No.
                27010-9-KC
                June 2003
                                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                           OFFICE OF INSPECTOR GENERAL - AUDIT
                                                        Great Plains Region
                                                  8930 Ward Parkway, Suite 3016
                                                 Kansas City, Missouri 64114-3302
                                              TEL: 816.926.7667 FAX: 816.926.7676




DATE:                  June 3, 2003

REPLY TO
ATTN OF:              27010-9-KC

SUBJECT:              National School Lunch Program – Atchison County Community Schools,
                      Effingham, Kansas

TO:                   William E. Ludwig
                      Regional Administrator
                      Food and Nutrition Service
                      1244 Speer Boulevard, Suite 903
                      Denver, CO 80204


This report presents the results of our audit of the National School Lunch Program
(NSLP)1, as operated by Atchison County Community Schools. This district served as
the local school food authority (SFA) under an agreement with the Kansas State
Department of Education (KSDE), which served as the State agency (SA). We
evaluated policies and procedures over meal accountability and oversight of the
program operation to include the accuracy of collections, accounting processes, and the
use of program funds. We found SFA personnel were unaware of onsite accountability
procedures and two schools did not follow program agreement requirements. Food
service program records were not being retained for the required period at one school.
The SFA’s own internal reviews were delayed and did not identify the noncompliance by
the individual schools. Also, the SFA’s accounting procedures did not include crediting
to the food service account a prorated share of interest earned from investments. We
found no exceptions related to procurement activities.

BACKGROUND:

The KSDE serves as the SA, administering the program within the State, and the
U.S. Department of Agriculture’s (USDA) Food and Nutrition Service (FNS) serves as
the program’s funding agency. For school year 2001/2002 operations, the SFA
received about $140,000 in FNS reimbursement and about $5,600 in SA
reimbursement. Each SA is required to enter into a written agreement with FNS to
administer the NSLP/School Breakfast Program (SBP) and each SA enters into
agreements with SFA’s to oversee day-to-day operations. The SFA, located in
Effingham,    Kansas,     is    responsible  for  operating      the   NSLP      in


1
    Also includes the School Breakfast Program (SBP).
accordance with regulations. The SFA administered the NSLP/SBP in five public
schools in the Atchison County area.

On June 4, 1946, Congress passed the National School Lunch Act,2 now the
Richard B. Russell National School Lunch Act, which authorizes Federal school lunch
assistance. Section 4 of the Act authorizes general cash assistance payment for all
lunches served to children, in accordance with the provisions of the NSLP, and
additional special cash assistance for lunches served under the NSLP to children
determined eligible for free or reduced-price lunches. The States are reimbursed at
various rates per lunch, depending on whether the child was served a free,
reduced-price, or full-price (paid) lunch. The fiscal year (FY) 2002 funding for the NSLP
was $6 billion for meal reimbursements of approximately 4.7 billion lunches. The
Kansas SA received approximately $58 million for the NSLP and $14 million for the SBP
in Federal reimbursements for FY 2002. For school year 2001/2002, Kansas provided
State funds of approximately $2.5 million to SFA’s.

OBJECTIVES:

The objectives of our audit were to evaluate controls over the administration of the
NSLP and SBP. We evaluated policies and procedures over meal accountability and
oversight of program operation. To accomplish this, we determined (1) the accuracy of
collections and accounting for reimbursed meals, (2) the accounting and use of program
funds relating to the SFA’s procurement of goods and services, and (3) the accounting
for the SFA’s school food service operations.

SCOPE AND METHODOLOGY:

Our review primarily covered NSLP/SBP operations July 1, 2001, through
November 30, 2002, concentrating on operations since July 1, 2002. However, records
for other periods were reviewed, as deemed necessary. We performed audit work at
the FNS Regional office, Kansas SA, and the SFA in Effingham, Kansas. Audit work
was performed at the SFA during December 2002. We reviewed NSLP/SBP operations
for all five schools and made observations at two of the three elementary schools. Our
audit was performed in accordance with Government auditing standards.

To accomplish our review objectives, we reviewed FNS, SA, and SFA regulations,
policies, procedures, manuals, and instructions governing NSLP/SBP operations, and
interviewed officials at each level.    We also reviewed the SA’s most recent
administrative review of the SFA’s NSLP/SBP operations and the SFA’s corrective
actions taken in response to the administrative review findings and recommendations.
We also (1) evaluated the SFA’s procedures used to gather and consolidate monthly
meal claims and whether reports were verified for accuracy, (2) evaluated edit check
controls used to assure the reasonableness of claims for reimbursement and calculated
the financial impact when daily meal counts, by category, exceeded average daily
attendance, (3) reviewed the SFA’s accounting system, which included a review of
program funds and interest earned on those funds, (4) analyzed the SFA’s methods
2
    42 U.S. Code 1751.
used for procurement of goods and services and the SFA’s process in monitoring the
contract terms and conditions of awarded vendors, and (5) analyzed the monitoring
efforts of the SFA through a review of the onsite accountability reviews conducted
during school year 2001/2002.

FINDINGS:

Finding No. 1:

The SFA did not have adequate procedures in place to ensure that noncompliance with
program agreement requirements would be detected or prevented during the onsite
review process. This occurred because the SFA had not effectively monitored schools
in its jurisdiction to ensure that the approved meal accountability systems were in place
and that the schools were following the program agreement. As a result, food service
personnel at two of the three elementary schools were unaware of onsite accountability
procedures and were not following them, as stated in the program agreement, and one
school was not retaining program records, as required.

Federal regulations3 require the SFA to perform an onsite monitoring review of meal
counting and claiming systems used at each school under its jurisdiction annually, by
February 1. The regulation also requires the SFA to ensure that the school’s claim is
based on the counting system authorized by the SA.4

We informed the SFA officials that the accountability procedures being used differed
from the program agreement, and the SFA officials were not aware of the incorrect
accountability procedures taking place or that required program records were not being
retained.

a.       Onsite reviews did not meet requirements and disclose deficiencies. The Food
         Service Director completed an onsite accountability review at all five schools for
         school year 2001-2002 on February 7, 2002, which was after the required
         February 1 deadline. In addition, the onsite review was not signed by the SFA
         authorized representative or the Food Service Director who performed the
         review.

         The onsite accountability review included a requirement to determine if the
         system observed matched the system as submitted to the KSDE. We found that
         the SFA reviewer showed that for all five schools the collection and accountability
         procedures matched the program agreement. However, as shown below, we
         observed two schools’ accountability procedures that did not match those stated
         in the program agreement and the SFA review did not detect these conditions.

         The onsite review was the Food Service Director’s first time conducting the
         review and the Director did not adequately execute the review due to
3
  7 CFR 210.8(a)(1).
4
  The agreement between the KSDE and the SFA, as permitted under 7 CFR 210.19(e), is more restrictive than Federal regulations
governing counting and claiming procedures under 7 CFR 210.7(c), by requiring each SFA to identify the specific counting and
claiming system(s) used at each participating school.
         inexperience. The Food Service Director stated that the review for the current
         school year would be completed by February 1, 2003, and properly signed.

b.       Meal accountability procedures not followed. Meal accountability procedures
         observed at two schools were not consistent with the program agreement.

         Federal regulations5 require the SFA to enter into an agreement with the SA.
         KSDE Food Service Facts Handbook – 1999 states that an authorized
         representative of the SFA must assure that the local program complies with the
         program agreement between the SFA and SA. The program agreement for
         Cummings and Lancaster Elementary Schools includes accountability
         procedures that state, “At the end of the serving line, a cashier or teacher uses a
         coded roster to checkoff or scan the name or number of each student served a
         reimbursable meal.6 The cashier uses the roster or the computer to determine
         the daily count by category.”

         We observed at Lancaster Elementary School a roster being checked at the
         beginning of the lunch line to determine the daily count by category. Cummings
         Elementary School food service program also utilized a roster that was
         completed before the lunch period began. The Cummings Elementary School
         lunch supervisor completed the roster by collecting the teacher’s morning
         attendance and lunch count records. These procedures allow for students to
         leave before the lunch period and still be claimed, resulting in an over claim. An
         SA official stated that Cummings Elementary meal accountability procedures are
         not point of service, as required by the agreement.

         Food service employees at both schools stated that accountability procedures
         have always been performed as we observed and the Food Service Director had
         never questioned these procedures.

c.       Food service program records were not being retained at one school. The SFA
         had not effectively monitored schools in its jurisdiction to ensure that
         recordkeeping requirements were being met. As a result, there was decreased
         assurance that meal counts were adequate because the records were not
         available for review, as required.

         Federal regulations7 require SFA records shall be retained for a period of 3 years
         after the date of submission of the final claim for reimbursement for the FY.
         KSDE Food Service Facts Handbook – 1999 and the program agreement require
         that menu production records and records, which document the amount of
         money received as State and Federal reimbursement, must be retained for
         5 years plus the current year.


5
  7 CFR 210.9(b).
6
  The agreement between the KSDE and the SFA, as permitted under 7 CFR 210.19(e), is more restrictive than Federal regulations
governing counting and claiming procedures under 7 CFR 210.7(c), by requiring each SFA to identify the specific counting and
claiming system(s) used at each participating school.
7
  7 CFR 210.23(c).
           Through interviews with a Lancaster Elementary official, we determined food
           service records (rosters, daily records of lunches/breakfasts served, and record
           of money collected) were destroyed at the end of each school year. A school
           official was not aware of the 5-year recordkeeping requirement. The SFA
           officials were not aware that the Lancaster official was destroying records. The
           SFA officials stated that it is school board policy to request written permission
           before destroying any records.

Recommendation No. 1:

Require the SA to direct the SFA to ensure that onsite accountability reviews are
completed timely and signed, as required, and that additional oversight of monitoring
visits is provided to ensure they detect and prevent noncompliance with program
requirements or problems. Require the SA to direct the SFA to ensure the local
program complies with the record retention requirement, as stated in the program
agreement between the SFA and SA.

Agency Response:

The FNS response (attached as exhibit A) showed the agency concurred with
Recommendation No. 1 and will direct the SA to ensure that the SFA conducts their
onsite accountability reviews in a timely manner and that additional oversight of
monitoring visits is provided to ensure they detect and prevent noncompliance. In
addition, the SA will direct the SFA to comply with the records retention requirements.

OIG Position:

We can accept the management decision once we receive specific timeframes for the
completion of the proposed action.

Finding No. 2:

The SFA did not credit the school food service account with a prorated share of interest
earned from investments. According to the SFA, the SA had never instructed them to
allocate interest to the school food service account. As a result, the interest from the
school food service account deposited in the general fund was understated. The
closing cash balances for school year 2001-2002 ranged from approximately $65,000 to
$135,000 and the interest rates earned on the district’s investment account ranged from
1.43 percent to 3.47 percent. We estimated the earned monthly interest that should
have been credited to be between $77 and $390 per month.

The Federal regulations definition of revenue shows that a prorated share of earnings
from investments should be credited to the school food services account.8

The SFA invested all surpluses in an interest bearing investment account. The SFA
placed all interest earned from investment accounts into either a capital outlay fund or a
8
    7 CFR 210.2.
scholarship fund. The capital outlay fund was used for equipment, construction,
improvements, etc. Because the SFA historically transferred general funds that would
exceed the interest earned from investments to the food service account, we are not
questioning any costs but the earnings from the balance of the school food service
account should be recognized in the SFA’s accounting system.

Recommendation No. 2:

Require the SA to instruct the SFA to credit the school food service account with its
prorated share of the investment income.

Agency Response:

FNS concurred with Recommendation No. 2 and will require the SA to instruct the SFA
to credit the food service account with its prorated share of the investment income.

OIG Position:

We can accept the management decision once we receive specific timeframes for the
completion of the proposed action.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing corrective actions taken or planned and the timeframes for accomplishing final
action. Please note that the regulation requires management decisions to be reached on
all findings and recommendations within 6 months from the date of report issuance.

We appreciate the assistance provided to us during our review.

/s/


DENNIS J. GANNON
Regional Inspector General
  for Audit
EXHIBIT A – FNS RESPONSE TO THE DRAFT REPORT
